APPENDIX TABLE OF CONTENTS

Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
Order of the District Court of Muskogee County
State of Oklahoma (October 14, 2020) ................... 12a
Agreed Stipulations
(September 23, 2020)........................................ 16a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 18a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOSEPH STANLEY HARJO,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-889
An Appeal from the District Court of Muskogee
County the Honorable Norman Thygesen
Associate District Judge
Before: Robert L. HUDSON, Judge, Dana KUEHN,
Presiding Judge, Scott ROWLAND Vice Presiding
Judge, Gary L. LUMPKIN, Judge,
David B. LEWIS, Judge.
OPINION
HUDSON, JUDGE:
Appellant, Joseph Stanley Harjo, was tried by a
jury and convicted of Child Sexual Abuse, in violation
of 21 O.S.Supp.2014, § 843.5(E), in the District Court

App.2a
of Muskogee County, Case No. CF-2016-692. The jury
recommended a sentence of life imprisonment. The
Honorable Norman D. Thygesen, Associate District
Judge, presided at trial and sentenced Harjo in
accordance with the jury’s verdict. Appellant must
serve 85% of the sentence imposed before becoming
eligible for parole. Appellant now appeals from this
conviction and sentence.
In Proposition I of his brief in chief, Appellant
claims the District Court lacked jurisdiction to try him.
Appellant argues that he is a citizen of the Creek
Nation and the crime in this case occurred within the
boundaries of the Creek Reservation. Pursuant to
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), Appellant’s
claim raises two separate questions: (a) his Indian
status; and (b) whether the crimes occurred on the
Creek Reservation. These issues require fact-finding.
We therefore remanded this case to the District
Court of Muskogee County for an evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to Appellant’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to
prove it has jurisdiction. The District Court was
ordered to determine whether Appellant has some
Indian blood and is recognized as an Indian by a
tribe or the federal government. The District Court
was further ordered to determine whether the crimes
in this case occurred in Indian Country. In so doing, the
District Court was directed to consider any evidence

App.3a
the parties provided, including but not limited to
treaties, statutes, maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties may enter into a written stipulation
setting forth those facts upon which they agree and
which answer the questions presented and provide
the stipulation to the District Court. The District
Court was also ordered to file written findings of fact
and conclusions of law with this Court.
On remand, the parties filed with the District
Court an Agreed Stipulation announcing and requesting the Court accept the following stipulations: 1)
Appellant is 1/4th degree Indian blood; 2) Appellant is
an enrolled member of the Muscogee (Creek) Nation
and was such in 2016 at the time of the charged
crime; 3) the Muscogee (Creek) Nation is an Indian
Tribal Entity recognized by the federal government;
and 4) the charged crime occurred within the Creek
Reservation. The Agreed Stipulation was signed by
counsel for both parties including attorneys from the
Oklahoma Attorney General’s Office, the Muskogee
County District Attorney’s Office and counsel for
Appellant.
On October 14, 2020, Judge Thygesen filed an
Order containing his written findings of fact and conclusions of law. This Order thereafter was timely
filed with this Court along with the Agreed Stipulation
which is included as an attachment. The District
Court accepted and adopted the stipulations made by
the parties and concluded in its findings of fact and
conclusions of law that Appellant has some Indian
blood, that he is also recognized as an Indian by a

App.4a
tribe or by the federal government and therefore
Appellant is an Indian under federal law. Finally,
the District Court accepted and adopted the stipulation
of the parties that the crime in this case occurred on
the Creek Reservation.
On November 9, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted the
parties’ stipulations as discussed above and references
the District Court’s findings. The State contends in its
brief that should this Court find Appellant is entitled
to relief based on the District Court’s findings, this
Court should stay any order reversing the conviction
for thirty (30) days so federal authorities may secure
custody of Appellant. Cf. 22 03.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions
of law are supported by the stipulations jointly made
by the parties on remand. We therefore find Appellant
has met his burden of establishing his status as an
Indian, having 1/4th degree Indian blood and being a
member of the Muscogee (Creek) Nation. We further
find Appellant met his burden of proving the crimes
in this case occurred on the Creek Reservation and,
thus, occurred in Indian Country.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Appellant in this

App.5a
matter.1 The Judgment and Sentence in this case is
hereby reversed and the case remanded to the District Court of Muskogee County with instructions to
dismiss the case.2
DECISION
The Judgment and Sentence of the District
Court is REVERSED AND REMANDED WITH
INSTRUCTIONS TO DISMISS. The MANDATE
is not to be issued until twenty (20) days from the
delivery and filing of this decision.3

1 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice system
in Oklahoma and the need for a practical solution by Congress.
See Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur
in Results); Hogner v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson,
J., Specially Concurs); and Krafft v. State, No. F-2018-340 (Okl.Cr.,
Feb. 25, 2021) (Hudson, J., Specially Concurs) (unpublished).
2 This resolution renders the other seven propositions of error
raised in Appellant’s brief moot.
3 By withholding issuance of the mandate for twenty days, the
State’s request for time to secure Appellant’s arrest by federal
authorities is rendered moot.

App.6a
AN APPEAL FROM THE DISTRICT COURT
OF MUSKOGEE COUNTY
THE HONORABLE NORMAN THYGESEN
ASSOCIATE DISTRICT JUDGE
APPEARANCES AT TRIAL
Chad Johnson
Garrett Marshall
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Orvil Loge
District Attorney
Muskogee County
220 State Street
Muskogee, OK 74401
Counsel for the State
Mike Hunter
Okla. Attorney General
Jennifer Crabb
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
APPEARANCES ON APPEAL
Chad Johnson
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Okla. Attorney General

App.7a
Jay Schniederjan
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
Opinion by: Hudson, J.
Kuehn, P.J.: Concur In Results
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Concur in Results

App.8a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded
to do what an average citizen who had been fully
informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.4
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
4 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white section with whom they
would trade and associate. I just cannot get through
my mind how this bill can possibly be made to
operate in a State of thickly-settled population.
(emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.10a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice Roberts
and Justice Thomas eloquently show the Majority’s
mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.11a
LEWIS, JUDGE, CONCURRING IN RESULTS
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in results to the
decision to dismiss this case for the lack of state
jurisdiction.

App.12a
ORDER OF THE DISTRICT COURT OF
MUSKOGEE COUNTY STATE OF OKLAHOMA
(OCTOBER 14, 2020)
IN THE DISTRICT COURT OF MUSKOGEE
COUNTY STATE OF OKLAHOMA
________________________
JOSEPH STANLEY HARJO,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
COCA No. F-2017-889
Muskogee County No. CF-2016-692
Before: Norman D. THYGESEN,
Associate District Judge.
ORDER
Following the United States Supreme Court’s
decision in McGirt v. Oklahoma, 140 S.Ct. 2452 (2020),
the Oklahoma Court of Criminal Appeals remanded
Appellant’s case to this Court on August 21, 2020, for
an evidentiary hearing to determine Appellant’s status
as an Indian and whether the crimes occurred on the
Creek Reservation.

App.13a
On October 5, 2020, the parties filed an Agreed
Stipulation, announcing and requesting this Court to
accept the following stipulations:
1.

Appellant is one-fourth (1/4) degree Indian
blood.

2.

Appellant is an enrolled member of the
Muscogee (Creek) Nation and was such in
2016, the time of the charged offense.

3.

The Muscogee (Creek) Nation is an Indian
Tribal Entity recognized by the federal government.

4.

The charged crime occurred within the Creek
Reservation.

This Court hereby accepts the stipulations. Further, this Court makes the following findings of fact
and conclusions of law, which the parties agree to.
The first issue for adjudication is Appellant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Diaz, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1982 OK CR 48, 644 P.2d 114. As to
the present matter, the parties jointly stipulate in
writing the evidence will show “Appellant is onefourth (1/4) degree Indian blood.” See Agreed Stipulation

App.14a
(Attachment A). In addition, “Appellant is an enrolled
member of the Muscogee (Creek) Nation and was
such in 2016, the time of the charged offense.” Id.
Finally, “[t]he Muscogee (Creek) Nation is an Indian
Tribal Entity recognized by the federal government.”
Id. Applying the elements of Diaz to the evidentiary
stipulations in the present matter, the Court finds
Appellant has “some Indian blood” and is also “recognized as an Indian by a tribe or by the federal government.” For this reason, the Court finds Appellant is an
Indian under federal law.
Having found Appellant is an Indian under federal law, this Court must now determine if the crime
occurred on the Creek Reservation. As McGirt v.
Oklahoma, 140 S.Ct. 2452 (2020) explains “[t]he 1833
Treaty fixed borders for what was to be a ‘permanent
home to the whole Creek nation of Indians.’” Id. at
2461. The parties in this matter stipulate “[t]he charged
crime occurred within the Creek Reservation.” For
this reason, the Court adopts the stipulations and
finds the crime occurred on the Creek Reservation.
The Remand Order provides:
[I]n the event the parties agree as to what
the evidence will show with regard to the
questions presented, they may enter into a
written stipulation setting forth those facts
upon which they agree and which answer
the questions presented and provide the
stipulation to the District Court. In this event,
no hearing on the questions presented is
necessary.
Remand Order p.4. Accordingly, as this Court accepts
the Agreed Stipulation, which “answer[s] the questions
presented,” the evidentiary hearing currently scheduled

App.15a
for October 14, 2020, at 1:30 p.m., is hereby stricken.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the District Court Clerk
shall transmit this Order with attachments to the
Clerk of the Court of Criminal Appeals.
BE IT SO ORDERED
/s/ Norman D. Thygesen
Associate District Judge
Muskogee County
State of Oklahoma

App.16a
AGREED STIPULATIONS
(SEPTEMBER 23, 2020)
IN THE DISTRICT COURT OF MUSKOGEE
COUNTY STATE OF OKLAHOMA
________________________
JOSEPH STANLEY HARJO,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
COCA No. F-2017-889
Muskogee County No. CF-2016-692
Following the United States Supreme Court’s decision in McGirt v. Oklahoma, 140 S.Ct. 2452 (2020),
the Oklahoma Court of Criminal Appeals remanded
Appellant’s case to this Court on August 21, 2020,
for an evidentiary hearing to determine 1) Appellant’s
status as an Indian, and 2) whether the crimes
occurred on the Creek Reservation. The parties hereby announce, and request this Court to accept, the
following stipulations:
1.

Appellant is one-fourth (1/4) degree Indian
blood.

App.17a
2.

Appellant is an enrolled member of the
Muscogee (Creek) Nation and was such in
2016, the time of the charged offense.

3.

The Muscogee (Creek) Nation is an Indian
Tribal Entity recognized by the federal government.

4.

The charged crime occurred within the Creek
Reservation.

Respectfully submitted this 23rd day of September,
2020.
/s/ Chad Johnson, No. 32432
Garrett Marshall, No. 33960
General Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Jennifer Crabb, No. 20546
Oklahoma Attorney
General’s Office
Assistant Attorney General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921
/s/ Orvil Loge
Muskogee County District Attorney’s Office
220 State St. #1
Muskogee, Oklahoma 74401

App.18a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOSEPH STANLEY HARJO,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-889
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant, Joseph Stanley Harjo, was tried by a
jury and convicted of Child Sexual Abuse, in violation
of 21 O.S.Supp.2014, § 843.5(E), in the District Court
of Muskogee County, Case No. CF-2016-692. The
jury recommended a sentence of life imprisonment.
The Honorable Norman D. Thygesen, Associate Dis-

App.19a
trict Judge, presided at trial and sentenced Harjo in
accordance with the jury’s verdict. Appellant must
serve 85% of the sentence imposed before becoming
eligible for parole. Appellant now appeals from this
conviction and sentence.
In Proposition I of his brief in chief, Appellant
claims the District Court lacked jurisdiction to try
him. Appellant argues that he is a citizen of the
Creek Nation and the crime in this case occurred
within the boundaries of the Creek Reservation.
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Appellant’s claim raises two separate questions: (a) his Indian status and (b) whether
the crime occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Muskogee County
for an evidentiary hearing to be held within sixty
(60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)

App.20a
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred on the Creek
Reservation. In making this determination the District Court should consider any evidence the parties
provide, including but not limited to treaties, statutes,
maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116. See
also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.21a
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In
this event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Muskogee County:
Appellant’s Brief in Chief, filed March 28, 2018; and
Appellee’s Response Brief, filed May 18, 2018. The
present order renders MOOT any request made to
date for supplemental briefing by either party in this
case as well as any request to file an amicus brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

